<html>
<title> - CENSUS DATA AND ITS USE IN THE DEVELOPMENT PROCESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
           CENSUS DATA AND ITS USE IN THE DEVELOPMENT PROCESS 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2007

                               __________

                           Serial No. 110-196

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-988 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
PAUL E. KANJORSKI, Pennsylvania      MICHAEL R. TURNER, Ohio
CAROLYN B. MALONEY, New York         CHRIS CANNON, Utah
JOHN A. YARMUTH, Kentucky            BILL SALI, Idaho
PAUL W. HODES, New Hampshire
                      Tony Haywood, Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 29, 2007.................................     1
Statement of:
    Barton, Dan, president, Grafton Hill Neighborhood 
      Association; David Bohardt, vice president, St. Mary 
      Development Corp.; Teresa Brandt, president, Dayton View 
      Historic Neighborhood; Theresa Gasper, president, Full 
      Circle Development, LLC; Karin Manovich, Historic South 
      Park, Inc.; and Idotha Bootsie Neal, president, Wright 
      Dunbar, Inc................................................    39
        Barton, Dan..............................................    39
        Bohardt, David...........................................    44
        Brandt, Teresa...........................................    51
        Gasper, Theresa..........................................    59
        Manovich, Karin..........................................    68
        Neal, Idotha Bootsie.....................................    74
    Kelley, Steve, Director, Office of Strategic Research, Ohio 
      Department of Development; and Matthew Scire, Director, 
      Strategic Issues, Government Accountability Office.........     7
        Kelley, Steve............................................     7
        Scire, Matthew...........................................    18
Letters, statements, etc., submitted for the record by:
    Barton, Dan, president, Grafton Hill Neighborhood 
      Association, prepared statement of.........................    41
    Bohardt, David, vice president, St. Mary Development Corp., 
      prepared statement of......................................    46
    Brandt, Teresa, president, Dayton View Historic Neighborhood, 
      prepared statement of......................................    53
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Gasper, Theresa, president, Full Circle Development, LLC, 
      prepared statement of......................................    61
    Kelley, Steve, Director, Office of Strategic Research, Ohio 
      Department of Development, prepared statement of...........     9
    Manovich, Karin, Historic South Park, Inc., prepared 
      statement of...............................................    70
    Neal, Idotha Bootsie, president, Wright Dunbar, Inc., 
      prepared statement of......................................    76
    Scire, Matthew, Director, Strategic Issues, Government 
      Accountability Office, prepared statement of...............    20


           CENSUS DATA AND ITS USE IN THE DEVELOPMENT PROCESS

                              ----------                              


                        MONDAY, OCTOBER 29, 2007

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                        Dayton, OH.
    The subcommittee met, pursuant to notice, at 11:05 a.m., at 
the John W. Beery, Sr. Wright Brothers Aviation Center, 1000 
Carillon Boulevard, Dayton, OH, Hon. Wm. Lacy Clay (chairman of 
the subcommittee) presiding.
    Present: Representatives Clay and Turner.
    Staff present: Darryl Piggee, staff director/counsel; 
Alissa Bonner, professional staff member; Nidia Salazar, staff 
assistant; Michael Wiehe, legislative director for 
Representative Turner; and Chas Phillips, minority counsel.
    Mr. Clay. The subcommittee will come to order. And let me 
thank my ranking member, Congressman Mike Turner, for this 
invitation to come to Dayton. We certainly appreciate the 
opportunity to be here. We certainly appreciate the 
hospitality, and the--the historic significance of this 
community speaks volumes about this community, and how--and the 
confidence that they put in my colleague, Mr. Turner, to 
represent them in Washington. And I am so happy to have been 
invited, and to be able to conduct this hearing here.
    Welcome to the Information Policy, Census, and National 
Archives Subcommittee hearing. And this hearing will come at 
the topic of census data and issues in the development process. 
Hearing no objection, the chair and ranking member will each 
have 5 minutes to make opening statements. And all Members will 
have 3 days to submit statements for the record.
    And I'll begin with the opening statement, and welcome you 
again to the day's hearing on census data and its use in the 
development process. Because of Congressman Turner's work on 
community development, as Mayor of Dayton, a Member of Congress 
and chair of the subcommittee, Dayton is an ideal place to 
discuss today's topic. And I commend him for his work in this 
area.
    Today we will discuss, one, the impact of the accuracy of 
census data on community development; and, two, how census data 
is used in community development programs; and, three, how 
stakeholders in the community develop a process--processes to 
use census data in their decisionmaking.
    The Census Bureau conducts over 100 surveys every year, in 
addition to the decennial census. Data from the decennial 
census is used for the apportionment of congressional seats, 
managing Federal agencies, and allocating Federal funds. Over 
$300 billion is allocated based on data collected by the Census 
Bureau. Estimates published under the Population Estimates 
Program alone are used to distribute over $100 billion in 
Federal funding, and to determine eligibility for social 
programs that are based on population. Thus, undercounts can 
significantly reduce funding for States and localities. One 
study conducted for the U.S. Census Monitoring Board predicted 
that the undercount for the 2000 census would cost States $4.1 
billion in Federal funding. A GAO study conducted in 2003 found 
that correcting population estimates for the 2000 census would 
redistribute about $380 million in Federal funding for 
Medicaid, Foster Care, Adoption Assistance, and the Social 
Services Block Grant.
    It is my hope, that the testimony received, and the 
discussions that follows will yield constructive suggestions 
for improving the accuracy of census data, to reduce funding 
discrepancies, and the usefulness of census data to 
stakeholders. We will hear from two expert panels here today, 
who will share their thoughts on how this great task can be 
accomplished in the most efficient and effective manner.
    And now, I will recognize my friend and colleague, the 
ranking member of the subcommittee, Mike Turner. Thank you.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Turner. Thank you, Chairman Clay. I want to thank you 
for being here, and taking the time out of your busy schedule, 
also away from your duties in Washington and your district, to 
come to my district, to see what we've been doing here. We have 
sort of a slogan in our office, which is, have you been to 
Dayton yet? And we try to bring everybody from Washington, DC, 
and I'm glad you have come. We've had the opportunity today, to 
see Hawthorne Hill and Carillon Park facility that we're in. 
And I appreciate your willingness to see these historic sights, 
and also to hear the testimony today. We went to South Park 
earlier, so we saw some of the homes that have been renovated, 
and really the great potential in that neighborhood.
    And for the people who are here, I want to tell you what a 
leader our chairman is in Congress, in the issue of urban 
areas, and issues. He also serves on the Financial Services 
Committee, where the important issues of predatory lending, and 
SSBG, and other Federal funding issues that assist in 
redevelopment of communities occurs. And also was instrumental 
in the efforts for Youthbuild, that translates right into 
issues of how do you use construction skills to renovate 
neighborhoods, and also provide opportunities for education and 
employment opportunities.
    And something I learned from you, about you today, that I 
was unaware, your father was one of the original founders of 
the Congressional Black Caucus. And the important significance 
that has played in giving a voice to urban areas, and also 
important issues from minority communities. We appreciate your 
work on the census, because you have been an advocate for 
making sure that minority populations are counted, but also 
that city's accurately counted. Some of our most difficult 
areas to count, in ensuring that they receive adequate 
representation, as you pointed out in your comments, it doesn't 
just go to voting representation, it also goes to their share 
in Federal funds, that can address some of the issues for their 
community.
    When we toured South Park today, one of the things we 
looked at was before and after pictures. And in one of the 
homes, they gave us a description of the history of the house. 
And I wanted to point out that when you read this history, and 
we're standing there in the building, it starts with one item 
at 1900. It says, the census lists the residence of 31 Bradford 
as John Campbell and Kathryn, and tells their history, and goes 
on to tell the census residence in 1910, 1920, and 1930. But 
how it was used as a historic tool to tell the story of, what 
are the histories of these properties, and how do they fit in 
the overall fabric of our community?
    I want to thank you so much for taking your time to be 
here, and the importance of how this type of revitalization 
project translates right to the issue of, how do we build our 
urban populations to attract people back to our cities?
    I also want to thank Brady Crest and Theresa Beachler, and 
the rest of the staff here at Carillon Park, for their 
hospitality and insistence on making this hearing successful. 
Carillon Park is a wonderful facility in our community. I'm 
glad the chairman was able to see Dayton's history through this 
facility.
    The hearing today will focus on population trends, and what 
cities can do to reverse the population migration from urban 
neighborhoods. Before I was mayor, I worked with several 
neighborhood leaders to create the private partnership 
Rehabarama with the Homebuilder's Association and Citywide 
Development. This partnership targeted Dayton's historic 
neighborhoods, and purchased the worst homes, renovated them, 
then held a home show to showcase the homes and neighborhoods 
to the region.
    Each of Dayton's eight historic neighborhoods was a 
recipient of the efforts of Rehabarama. Just last week was the 
end of the second Rehabarama in the historic South Park 
neighborhood. This show was unique, in that all of the 
investment was done by private citizens, rather than public 
subsidy. Mike DiFlora of the Home Group and Theresa Gasper of 
the Full Circle Development are to be commended for their 
vision and commitment to transforming the South Park 
neighborhood.
    The show is very successful, and the homes were carefully 
restored. The chairman and I had the opportunity to see the 
great work that was done earlier today. In each neighborhood, 
Rehabarama had an impact both on the surrounding property 
values, but also on the population trends in the area. The show 
brought families back into abandoned homes, and increased the 
desirability of living in Dayton's historic districts.
    I look forward to hearing from our witnesses today. And I 
again want to thank the chairman for his time and generosity in 
coming to Dayton.
    Mr. Clay. Thank you, Congressman Turner. The committee will 
now hear testimony from the panel of folks. First witness 
before us, we have two excellent panelists. One, Mr. Matthew 
Scire, Director of Strategic Issues for the Government 
Accountability Office and, two, and no stranger to this 
committee, welcome Mr. Scire.
    Mr. Scire. Thank you.
    Mr. Clay. And we also have joining us Steven Kelley, 
manager of the Office of Strategic Research for the Ohio 
Department of Development, and the Ohio Data Center, the State 
liaison to the U.S. Census Bureau. Thank you for coming today, 
Mr. Kelley.
    Mr. Kelley. My pleasure.
    Mr. Clay. And it is the committee policy, that all 
witnesses are sworn in. And please rise and raise your right 
hands, please.
    [Witnesses sworn.]
    Mr. Clay. The record will show that each witness answered 
in the affirmative. Your entire statement will be entered into 
the record. And the--you have a light in front of you, that 
indicates your time. But we won't be that strict about it, 
please. And the yellow light means that you have--that your 
time is running down, and you have 1 minute remaining. And then 
the red light means your time has expired, so we'll get 
started. And I guess we will begin with Mr. Kelly. It's your 
show.

   STATEMENTS OF STEVE KELLEY, DIRECTOR, OFFICE OF STRATEGIC 
 RESEARCH, OHIO DEPARTMENT OF DEVELOPMENT; AND MATTHEW SCIRE, 
  DIRECTOR, STRATEGIC ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

                   STATEMENT OF STEVE KELLEY

    Mr. Kelley. Thank you, Chairman Clay, Ranking Member 
Turner, and the Subcommittee on Information Policy, Census, and 
National Archives. On behalf of Governor Ted Strickland and 
Lieutenant Governor Lee Fischer, I am pleased to share with you 
Ohio's State Data Center experience of working with the U.S. 
Bureau of the Census and its many data products. The data 
provided by the Bureau is a part of the warp and weave of 
policy and development here in the State. Every day, the 
numbers are referenced for a benchmark, or a trend line, and 
are the starting points for future planning.
    The first Joint Statistical Agreement between the Census 
Bureau and the State of Ohio was signed in 1979, forming the 
Census State Data Center network. This mutually supported 
network is comprised of 47 government, planning, academic and 
library agencies widely spread across the State.
    The State Data Center lead agency is housed at the Ohio 
Department of Development. The office is relatively unique, a 
combination of multiple census sharing programs, the State data 
center, population estimates, and population projection 
projects programs are all within a single State governmental 
agency. The Department has directly assisted the Bureau in 
promoting three decennial censuses, 1980, 1990 and 2000.
    The most obvious use of census data is the allocation of 
Federal dollars. For Ohio, an annual average of $7.6 billion in 
Federal funding is appropriated, based on census counts. This 
figure was derived from a 10-year review of the Consolidated 
Federal Funds Report.
    Changing demographics of the population also has an 
important impact on the cost and delivery of government 
services. The chart on the Daily Net Growth of the 65 and over 
population from 1995 to 2000 clearly demonstrated to the 
General Assembly of Ohio as it deliberated on the State 
Biennial Budget, the impact of an aging population. In 2007, 
Ohio is experiencing a growth of 36 people a day in the age 65 
and over cohort. In 2011, when the first baby boomers, those 
born in 1946, reach 65, the daily growth jumps to 142 per day, 
and stays over 100 a day for the next 15 years. Clearly, 
population numbers have an impact.
    Private development finds that tying census numbers to a 
specific geography is the critical factor. The ability to cross 
tabulate place, with population, with income or education 
provides the decision criteria for many retailers and other 
business services. For major employers, the community pattern 
data helps determine the potential labor pool for a specific 
location. The TIGER geography program allows business to map 
the census data across a wide area without changing scale, or 
paying for the creation of a base analysis map.
    Moving ahead, looking at some of the population products 
from the Census Bureau. The Current Population Survey, while 
the least well known, is probably the most important tool for 
State and local development, as it is the source for many of 
our performance metrics. The unemployment rate and the size of 
the civilian labor force at the State, county, and central 
cities are the most basic of our metrics. Each month, these 
numbers provide the only thermometer of local economic 
conditions. And in addition, the annual release of educational 
attainment, income distribution, and poverty rates are 
carefully studied and compared for improvement from year to 
year.
    The newest and now most carefully watched information 
source, is the American Community Survey. The large city 
poverty statistics posted to over the last 3 years have drawn 
attention, as Ohio cities have been ranked as having the 
highest poverty rates in the country. The ranking process has 
been problematic, as many local statisticians look at the size 
of the sample, the margins of error, and the modified 
definitions of the new survey, to recognize that a range, 
rather than a rank would best represent the community. In 
Cleveland, the rank of first should have been reported as a 
first tier example.
    For the rest of the State, our rural and suburban places 
the limited sample size of the American Community Survey has 
made updated numbers unavailable. As a survey grows in years 
and size, we are hopeful that local communities and colleges 
can collaborate with the Census Bureau to increase the 
potential of the American Survey Community Survey. Together, in 
partnership with the Census Bureau, we should be able to 
deliver on its promise of more data in a timely fashion.
    Thank you for the opportunity to share with the 
subcommittee Ohio's experience with the census data. At this 
time, I'll be glad to answer your questions.
    [The prepared statement of Mr. Kelley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Mr. Kelley. And you--I can't 
believe that he did it under the 5-minute requirement. Thank 
you.
    Mr. Scire, I wonder if you could top this.
    Mr. Scire. I will try.
    Mr. Clay. Proceed.

                   STATEMENT OF MATTHEW SCIRE

    Mr. Scire. Mr. Chairman, Mr. Turner, thank you for the 
opportunity to be here today, to discuss the important role 
that the nation's population count plays in Federal grant 
programs. As you know, the decennial census is a critical and 
national effort mandated by the Constitution. Census data are 
used to apportion seats in the congress, redraw congressional 
districts, and for numerous other public and private sector 
purposes. These data are also used directly or indirectly to 
allocate billions of dollars in Federal assistance, to State 
and local government. In fiscal year 2004, agencies obligated 
over $460 billion in grant programs, the largest of these was 
Medicaid, which accounted for nearly 40 percent of total grant 
obligations. To understand the accuracy and completeness of the 
census count, the Bureau estimates the population at the time 
of the decennial count, using an independent statistical 
survey. Because of the concern that inaccurate population 
counts might affect the allocation of grant funds, we have 
simulated the impact of substituting the post-censal population 
estimate for the census count. To illustrate the potential 
impact, we selected one grant program, the Social Services 
Block Grants program, because its formula relies exclusively on 
annual population estimates, to allocate funds among the 
States. We found that using the independent population 
estimate, rather than the census count, could shift funding 
among the States in the District of Columbia, principally 
because of variation among the States, in the extent to which 
the independent estimate for the State differed from its census 
count.
    To illustrate, looking at fiscal year 2004 for allocations 
for the Social Services Block Grant program alone, 27 States 
and the district of Columbia would have gained funding, and 22 
States would have lost funding, using estimates based on this 
independent survey. The greatest difference occurred for 
Washington, DC, which would have received an additional 2.05 
percent in funding. And Minnesota, which would have received 
1.17 percent less.
    Grant programs generally rely on annual estimates of the 
State's population developed by the Census Bureau. To prepare 
these annual estimates, the Bureau begins with a prior 
decennial count, and then updates these using data on births, 
deaths, and other information. By the time the next decennial 
count is completed, there can be substantial differences 
between it, and an annual estimate built on the prior decennial 
census.
    In 2000, these differences called errors of closure, range 
from a low of 0.27 percent for West Virginia, to a high of over 
10 percent for the District of Columbia. For every State, the 
population count was higher than the estimate that was based on 
a prior decennial, but the extent varied. The differences in 
error of closure among the States, result from shifts in State 
allocation of grant funds for the Social Services Block Grant 
Program, an estimated 8.6 million shifted from the 28 States 
that had below average percentage corrections, to the 22 States 
and the District of Columbia that had above average percentage 
corrections--I'm sorry, from below to above.
    One challenge that some grant programs may face, is the 
replacement of the decennial long form data, with the ongoing 
American Community Survey. Today, this survey provides annual 
information on communities with populations over 65,000. By 
2010, the survey will provide 5 year average estimates for 
areas to the areas smallest block groups, census tracks, small 
towns, and rural areas. The survey also provides information on 
immigration that will be used for annual, State, and county 
estimates of population.
    In summary, Mr. Chairman, the decennial census is an 
important factor of the allocation of grant funds. Either 
directly or indirectly, it is a component of many grant 
formulas. Should the count be inaccurate, it could affect the 
allocation of grant funds. Likewise, differences between annual 
estimates of population and the decennial count can build over 
the decade and cause a once-a-decade corrections to population 
estimates, and consequently, the allocations among the States.
    Because it is essential that the decennial count be 
accurate for 2010, the Bureau, once again, plans to conduct an 
independent statistical estimate of the population. Plans to 
focus on the components of any net, or over or under count, and 
how these may vary across population groups and locations. 
We're currently reviewing as plans--as in the past, we look 
forward to supporting the subcommittees over site efforts, to a 
timely and complete, and accurate cost affective census.
    This concludes my opening remarks. Thank you again for the 
opportunity to speak today. I'd be glad to take any questions 
you may have.
    [The prepared statement of Mr. Scire follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Mr. Scire. And thank you both 
for your testimony, in being here today. I will recognize the 
ranking member, Mr. Turner, for questions.
    Mr. Turner. Thank you, Mr. Chairman. Again, thank you both 
for being here, and for your testimony, and for highlighting 
the important issues of what the census data, demographics, 
what the information that we can glean from it, what things we 
need to do to improve our processes.
    Mr. Kelley, my first question goes to you, in that you have 
highlighted in your presentation, the differences in Ohio 
counties, of some being population losers, some being 
population gainers. In my district, looking on your map, you 
can see that for urban areas, the Dayton area appears to be 
about third in population loss, with Cleveland and perhaps 
Youngstown being higher. Toledo, Columbus, and Cincinnati 
having lost less population. So Ohio's--Dayton's losing more 
population than the others.
    In Warren County, which is in my district, being No. 2 for 
population gain. So you have this contrast of an urban core 
anchored county, and a county that is growing faster than 
actually--you have identified as not only greater than Ohio, 
but also greater than the national average--is its growth rate.
    In looking at the demographics from the census, beyond just 
population rises and increase, what are some of the things that 
we should look to in the demographic data, that would tell us 
what we should focus on, looking perhaps to policy of the 
development of the two different counties.
    Mr. Kelley. Congressman Clay, Ranking Member Turner, it's a 
big question. What the census is actually, a kind of a lagging 
indicator, in that it's reporting on the movement of people. 
And so we have to figure out what's going on with the 
population, and what are the trends. Over the last 20 years, 
we've seen a dramatic drop in interest rates. We've seen a 
housing boom that has been unrivaled in our history, except for 
the--probably the first baby boom. And so we've had low income, 
where we've had new household formation. We've had low interest 
rates, so that the movement of households to the American dream 
of owning your own home, and your own piece of property have 
been reinforced in a positive sort of way. And I think we'll 
see some trends change as the economics of the national 
economy, and then the local economy changes as well.
    So again, it's reflecting the market conditions out there. 
And we'll see some changes in the market conditions. And I 
think we'll see some changes between the two.
    Mr. Turner. In looking at demographics, one of the things 
that you highlighted in your testimony relates to the poverty 
statistics. You questioned whether or not the poverty 
information accurately reflected the circumstances of 
communities, and how it is reported. Could you speak a little 
more about that? And Mr. Scire, if you could respond to that.
    Mr. Kelley. First--Chairman Clay, Ranking Member Turner, 
first off was the sample size. What the statistics were 
revealing were a single year of statistics. And oftentimes, we 
were out in the field, we're looking at the numbers and 
wondering if it was a large enough sample.
    Second off, we saw the variation in the poverty rate. It 
was very volatile. And so that suggested that maybe 1 year, the 
sampling had leaned to the high end. And maybe the next year, 
that survey had leaned--so as more and more years become 
available, and they start mixing, I think we should see some 
stability on that, and that should help improve. We saw the 
definition of poverty change from the 2000 census, because of 
this change. And one of them is the issue of timing. The 
question is, in the last 12 months versus the last year. And so 
we see a constant change of that timing, and we're not quite 
sure exactly what that means, and what people are including. So 
we're finding it difficult to get a stable definition that can 
be checked over time. Those are some of the things that we're 
seeing with the national census, and so with the American 
Community Survey. And we hope that again, over time, some of 
that variability gets leveled out, and we can see maybe what 
those trends are doing.
    Mr. Turner. Mr. Scire, could you comment on that?
    Mr. Scire. We haven't looked at the American Community 
Survey, and how it's being implemented since it was originally 
put out there. But on the poverty statistic alone, one thing I 
would point out, that it's important, in terms of formulas and 
so forth, that it not--that it be--that it recognize the 
differences that there are in cost of living across--from one 
community to the next. That a flat rate for poverty, or flat 
number for poverty doesn't necessarily indicate what the need 
really is in a particular community.
    Mr. Turner. Excellent point.
    Mr. Kelley. Building on that, I guess I'll reinforce that 
on housing. If you take a look at the average price of housing 
in a Cleveland, or Cincinnati, or a Dayton versus a New York, 
or a Boston, or San Francisco, it becomes very obvious that 
there's a major difference in that definition.
    Mr. Turner. Excellent. Thank you, sir.
    Mr. Clay. Thank you, Mr. Turner. In your testimony, Mr. 
Kelley, you state that the ranking process of the American 
Community Survey became problematic, as many local 
statisticians began looking at the sample size margin of error, 
and the modified definition of survey, to recognize that a 
range rather than a rank would be best representing the 
community. Can you tell us a little more about the affective 
problems might have, on the quality of the data collected?
    Mr. Kelley. Chairman Clay, Representative Turner, the issue 
gets to be, when you take a look at the margin of error, that 
we found that a 24 percent rate of poverty, or a 30 percent 
rate of poverty, when we added in the margins of error, plus or 
minus 2 percent, or again, depending on the sample size, we 
found that the city ranked first and the city that ranked 20th, 
were actually statistically within range of each other. So we 
really couldn't say definitively, that Cleveland was a higher 
poverty rate than say Antonio. And so the issue of a rank gives 
a sense of exactness, that the margins of error, when you look 
at them say, that's not really the case. They all may be 
actually the same. And so it gets to be a little bit difficult. 
Being 1st or 20th is a big difference in the mind of a mayor of 
a community leader, and is--particularly in the media.
    Mr. Clay. No. It certainly is, because it would attach a 
stigma----
    Mr. Kelley. Yes.
    Mr. Clay [continuing]. Or a label on a certain community. 
The Non-employers Statistics Program provides information on 
businesses without paid employees at a subject of Federal 
income tax. According to the Census Bureau, most non-employers 
are self-employed individuals, operating small unincorporated 
businesses. In your work, have you found this information to be 
helpful to policymakers, in setting policy that affects small 
business?
    Mr. Kelley. Chairman Clay, Representative Turner, the--what 
we find, is that this is a new data set that we are just 
starting to examine and see the strength and limitations of it. 
We actually published a first--our first report on that data 
set this year. And we're still waiting to hear from the field, 
from businesses and from government leaders, how that impacts 
their understanding. We are amazed at the size and breath of 
the information that's there. And as far as the definition of 
small business, we're trying to incorporate that into our 
understanding. So it's still kind of new for us, to see what's 
happening.
    Mr. Clay. Should different--should additional categories of 
businesses be added to the survey, or would that help?
    Mr. Kelley. The jury's still out on that. Again, we're just 
trying to get people interested and aware of its existence. And 
we have not gotten a lot of feedback yet.
    Mr. Clay. Thank you. Thank you for that response. Mr. 
Scire, one of the purposes of this hearing is to find out how 
census data is used in Federal funding formulas. We know that 
they are used in the CDBG, Community Development Block Grant 
program, and Social Service Block Grant program, as you have 
discussed. Can you tell us how extensive, is the use of census 
data, in formulating for Federal programs?
    Mr. Scire. I think the way I would put it is, that the 
population counts ripple throughout the entire statistical 
system. The counts that are done every 10 years, are used as a 
basis for developing annual estimates of population. Many of 
these grant programs are using those measures directly. And 
then also the population count and the housing count are used 
to establish sampling frames, for example, for other surveys. 
So it's a foundation for the statistical system. And so there 
are many, many grant programs that rely on data, that may not 
directly use that population count, but for it the surveys, 
that they do rely on would be--would be done completely 
differently. So I think I would put it that way, that it really 
runs throughout these programs.
    Mr. Clay. In the GAO study, population estimates were 
submitted for census counts. And it was found that 
recalculating allocation from Social Services Program Block 
Grant funds would shift $4.2 million. Now, 27 States and the 
District of Columbia gained funding, and 23 States lost 
funding. What were the results of some of the other areas GAO 
examined in the study, and did the Census Bureau or the 
department comment on the study?
    Mr. Scire. We looked at two programs in that analysis. One 
was the Social Services Block Grant program, which you 
mentioned. The other was Medicaid. Of course Medicaid is huge, 
compared with the Social Services Block Grant Program. And so 
as you mentioned, there was $4.2 million, and those Social 
Services Block Grant funds would have shifted, if you 
substituted the estimates for the population count. For 
Medicaid, the number was more--was over $300 million. So just 
because of the sheer size of that program, there was much more 
of an impact, in terms of dollars. In terms of a percentage 
impact, it was more or less the same, that it was about a 
quarter of a percent of funding shifted among the States for 
both, the SSBG and the Medicaid program. Actually, Medicaid was 
a little bit less on the percentage basis. And there was an 
equivalent number of winners and losers, in terms of numbers of 
States. Let's see, I forgot the second part of your question.
    Mr. Clay. What is the effect of these adjustments, and how 
do the adjustments compare to the actual census?
    Mr. Scire. Well, again, this was--I would say that a 
quarter of a percent is the easiest way to look at it.
    Mr. Clay. OK. What agencies used the data the most? What 
Federal agencies rely on census data?
    Mr. Scire. I would not be surprised to learn that every 
Federal agency relies on census data in some way or another. If 
it's not for allocation of funds, then it's for understanding 
performance of programs, for example. But some of the bigger 
users, in terms of grant formulas would be HHS, the HUD, 
Department of Labor. But again, I think that the data are used 
in a lot of different ways.
    Mr. Clay. Thank you. Thank you for that response. Mr. 
Turner.
    Mr. Turner. Mr. Scire, I want to followup on the chairman's 
questions concerning the estimates. In your written testimony, 
page 7 has a chart that is--has the heading of ``Estimated 
Social Services Block Grant Percentage Change In Grant Funding 
Using Statistical Population Estimates for States.'' The 
chairman was asking you questions about that. In looking at the 
winners and losers, I note that not only is Ohio a loser in 
that, but that pretty much all of our neighbors, Indiana, 
Illinois, Michigan, Pennsylvania, West Virginia, Kentucky are 
all down in the bottom category. Could you just tell us a 
little bit more about this chart and that application?
    Mr. Scire. Certainly. I think that what you might be 
observing here, is that in these States--in the bottom of the 
chart, are ones that generally were considered to have had an 
over count. I also--before I even go any further, I want to 
emphasize that these are based on estimates coming out of this 
independent statistical survey called ACE. And I'm not sure 
that the Bureau even considers those estimates reliable. But 
having said that, if you were to substitute an estimate for the 
count, you would say that the estimate was lower for a lot of 
these States near the bottom. And so that basically, the 
population count was greater than, yes, but that's called an 
over count. It could be that these are States that throughout 
the decade, have had a loss of--did not have as much 
immigration population, perhaps, which might explain 
differentials that you see, between the under count and over 
count. So--and for--for the State of Ohio, this had no--0.79 
percent differential represented a $528,000, for example. In 
Minnesota, it was $344,000. For the District of Columbia, which 
had--which was considered to have had an under count, if you 
applied that estimate rather than the count, it would have made 
a difference of $67,000 in the SSBG program. There could be 
differences--when you look at Medicaid, the graphic might be a 
little bit different, inasmuch as States with higher incomes 
would be--have less of an effect, in a way, meaning the change. 
You're still going to get the--they would get the same 
repayment. The percentages it's based on, there's a floor. And 
it's 50 percent, basically, for the matching rate under 
Medicaid. And so you might see less of an impact in some 
States, than you do here, because Social Services Block Grant 
relies solely on population.
    Mr. Turner. One of the limitations I think we have in the 
census, is that we're counting people. And they're--of course 
that's a constitutional mandate, that we count people. But we 
layer on top of it, beyond the constitutional mandate, issues 
of demographics, which tend to be the conditions of people, 
their education level, their employment level. But it doesn't 
give us that much of a picture of communities. We can sort of 
extrapolate, and try to do comparison between communities, and 
communities based on similar demographic data. But I'm going to 
ask you to respond for just a moment, on limitations of the 
census, in that respect. And I'm going to do it in light of, 
Mr. Kelley, as you were saying, if you look at Montgomery 
County, we're a number of three of urban cores in the State 
losing population. Warren County, is still in my district, No. 
2, gaining population. You don't look at--through the census 
data information, what's left behind or what a community 
struggles with, as populations decline with the abandoned 
houses, blighting influences that result from that. So if you 
could just speak--I'm going to ask you for just a moment, to 
speak about the limitations that you see in census demographic 
data, in really telling us the true demographics of the 
community.
    Mr. Kelley. Chairman Clay, Congressman Turner, the issue is 
actually one of timing. The decennial census is every 10 years. 
And a part of that long form, as a component of the housing 
stock, and the household. And we get a wealth of information 
from that information. With the adding on the American 
Community Survey, and replacing the long form with this annual 
update, particularly in our urban areas, there is a potential 
of getting a more timely update, particularly when we're 
talking about vacancy rate of buildings, age of the buildings, 
condition of the buildings. So that may get to some of that 
question, of what is the current condition of our urban core. 
So the American Community Survey has some potential, to give us 
a timely update. Rather than once every 10 years, we might be 
able to see how things are moving in an every two to 3-year 
pattern, on what's happening.
    Mr. Turner. Excellent point. Mr. Scire.
    Mr. Scire. Well, I think we've reported in the past, the 
limitations of certain data. I would look at the--in terms of 
housing quality, for example, there are measures of, you know, 
whether or not there's complete plumbing, whether there's 
complete electric, and so forth. That would be over the years, 
those kind of metrics are less meaningful, because generally 
there's--there isn't the same issue, in terms of lack of those 
features. So the measures of housing quality may not really get 
at what you're trying to measure. In terms of poverty, I was 
talking before about the importance of adjusting that to 
recognize the various costs of living, from one locality to 
another. So a flat dollar amount threshold for poverty, 
wouldn't get that. And so there could be a better measurement, 
for example, of what metric for the cost of living, in a way. 
We're doing some analysis right now. We're looking at fair 
market rents, as one possibility of recognizing in a way, and 
adjusting poverty for the cost of living and locality.
    Mr. Turner. Thank you. Mr. Clay.
    Mr. Clay. Thank you. Mr. Kelley, for many large cities, 
there is a concern that the estimate methodology is biased to 
areas of rapid building, in other words, new construction, 
rather than to areas where there is rehab. What alternative 
procedures could you recommend to--for the Bureau to explore, 
as far as being able to, I guess, give equal attention to both 
areas?
    Mr. Kelley. Chairman Clay, Congressman Turner, the most--
probably the best example of that right now here in Ohio is 
that the city of Cincinnati has contracted the social contract 
of Washington, DC, to do an alternative population estimate 
process. And they included a large number of activities, but 
I'll focus in on what we've worked with, with the estimates 
division, again, building permits. We know that is the basic 
block that they use to manipulate the numbers. I would say that 
we'll need to ask them to reconsider or add additions for 
established communities for remodeling. At this point, all 
they're asking for is new builds. Remodeling has been 
eliminated. The second part of it is that the most--probably 
need to take a look at the IRS migration files, that they use 
to identify movement. Here in Ohio, we have a situation where 
there's a marriage penalty, often times for households. And 
it's beneficial to file separately, and that means filing 
separately at the Federal level. So we have a large number of 
possible--an over statement of households that are leaving or 
moving because of Ohio taxes. So we have an administrative 
issue, rather than an actual household activity, and that may 
be something that we need to go back and take a look at, as 
well.
    Mr. Clay. I see. And do you think if--if they would 
approach, I guess, the building permit issue, and I guess you 
also need a building permit to do rehab, is that in most 
cities?
    Mr. Kelley. My understanding, is that would be a 
requirement for most cities. Our township says that's not 
necessarily the case. In our cities, I would say that would be 
an absolute requirement, in most cases.
    Mr. Clay. Or work permits, or whatever?
    Mr. Kelley. Right.
    Mr. Clay. That's a great point. I thank you for that, Mr. 
Turner. Any more questions?
    Mr. Turner. No. No more questions.
    Mr. Clay. I have no more questions. This panel is excused, 
and thank you very much for your testimony today. You will 
also, without objection, submit the Census Bureau's testimony 
for today's hearing. And we'll take a brief break to set up for 
the second panel. Thank you both, gentlemen.
    Mr. Scire. Thank you.
    [Recess.]
    Mr. Clay. The committee will come to order.
    And it is the policy of the subcommittee, to swear in all 
witnesses. Would you please rise, and raise your right hands.
    [Witnesses sworn.]
    Mr. Clay. Thank you very much. You may be seated. The 
record will show that each witness answered in the affirmative. 
The entire statement will be entered into the record. At this 
point, I will differ to my ranking member, Mr. Turner, for 
introductions.
    Mr. Turner. Thank you, Mr. Chairman. It's my honor, to 
introduce to you, which is a diverse panel of grassroots 
community leaders, institutional partners, and community 
leadership. We're going to start with Dan Barton to our left, 
who is the president of the Grafton Hill Neighborhood 
Association. Grafton Hill is a neighborhood--all of these 
neighborhoods are right outside of downtown, but has many 
institutional partners including the home of our Art Institute.
    David Bohardt is currently the vice president with Saint 
Mary's Neighborhood Development Corp., which is a faith based 
CDC. He was, prior to that, the head of our local Homeowner's 
Association, and was a partner in our Rehabaramas, and the most 
important aspect for many of our neighborhoods, adding 
Citirama, which was a new construction component, convincing 
new home builders to come into the city of Dayton.
    Next, we have Theresa Brandt, who is the president of the 
Dayton View historic neighborhood. Dayton View is a very large 
neighborhood, that was a site of a very successful Rehabarama. 
And she has been very helpful in working with other 
neighborhoods, in addition to our own.
    We have Theresa Gasper, president of the Full Circle 
Development, who's the private equity partner for the South 
Park Rehabarama, which you visited today. In taking a lead in 
seeing how the private sector can come in, and play a role that 
government has previously played.
    Karin Manovich, the president of historic South Park, who 
is--has an incredible team that she leads in advancing South 
Park, which I believe has the largest number of structures, in 
all of our historic districts. So she has the largest area that 
she is coordinating.
    And then we have Idotha Bootsie Neal, who is the president 
of Wright Dunbar, Inc., which is a private partnership that is 
focused on the redevelopment of the Wright Dunbar neighborhood 
in the commercial sector. In addition to partnering on the 
residential side, Bootsie Neal served with me in the city 
council, and was a leader in both neighborhood development, but 
also in Rehabarama, and Citirama, and in really turning the 
Wright Dunbar area around, both with the rehab and new 
construction. The Wright Dunbar neighborhood today is one of 
the highest priced neighborhoods for a new housing 
construction. When Commissioner Neal was active, they had at 
first, had been a proposal to demolish the housing that was in 
the Wright Dunbar area and construct apartments. She fought to 
ensure that area be rehabilitated, and have an historic flavor, 
which it does today.
    Mr. Clay. Thank you. And welcome to all of you. I 
appreciate you being here today. And we will now--we will try 
to observe the 5-minute rule for presentation. And we'll start 
on this end and move on down. Mr. Barton, you may begin.

STATEMENTS OF DAN BARTON, PRESIDENT, GRAFTON HILL NEIGHBORHOOD 
     ASSOCIATION; DAVID BOHARDT, VICE PRESIDENT, ST. MARY 
   DEVELOPMENT CORP.; TERESA BRANDT, PRESIDENT, DAYTON VIEW 
 HISTORIC NEIGHBORHOOD; THERESA GASPER, PRESIDENT, FULL CIRCLE 
 DEVELOPMENT, LLC; KARIN MANOVICH, HISTORIC SOUTH PARK, INC.; 
    AND IDOTHA BOOTSIE NEAL, PRESIDENT, WRIGHT DUNBAR, INC.

                    STATEMENT OF DAN BARTON

    Mr. Barton. Thank you very much, Chairman Clay and 
Representative Turner, to come before this subcommittee today, 
to discuss the importance of a census information in 
neighborhood revitalization. And I'll speak to our--my 
particular perspective, which is a project called the 
Renaissance Alliance, incorporating institutions within our 
area. Our project was conceived based on the information that 
we were receiving from the census data base on total numbers 
and demographic information. What we were able to establish, as 
an ongoing trend, was the aging and the churn that was 
occurring within our neighborhoods.
    Our neighborhood was built between the 1870's and 1920's, 
with occasional high density construction occurring at the time 
of the peak of Dayton's population in the late 1960's and early 
1970's. The neighborhoods originally represented a cross-
section of the typical populations that were present throughout 
the county at that time. From looking at census data from the 
1950's on, we could track ongoing changes that eventually 
became an exodus of certain segments of the population. And 
this exodus continued for many reasons that were national, as 
well as local. But this population shifted away from the 
established urban core that we observed within the statistics, 
have a very significant and negative impact within our 
neighborhoods. The population shift left buildings within our 
neighborhoods without a viable market. Lacking competitive 
amenities with new suburban construction, the buildings fell 
into lower and lower occupancy, which consequently made it more 
and more difficult for the owners to maintain those structures, 
and to maintain a high enough level of occupancy, that they 
would remain profitable--profitable enough to maintain the 
buildings, etc. And update the buildings with the amenities 
that would attract the same kind of populations that they were 
originally built to hold, and give a residence to. This basic 
problem of the infrastructure aging and not being maintained, 
began to spread throughout the five area neighborhoods, 
impacting first the larger apartments, but then also impacting 
the single-family homes, which were at the core of the five 
neighborhoods. And census data throughout the 1970's and 1980's 
indicated that this trend was continuing and accelerating. And 
we could see from our own subjective evaluations, that this was 
occurring. We're not only losing people, but there was within 
the neighborhoods a lot of churn. Because it's individual 
buildings were falling into disrepair, that population might 
move to another building. But within any 10-year span, there 
would be a substantial shifting within the neighborhood of 
populations. And some of the instability that comes from the 
reporting certainly impacted our neighborhoods very heavily.
    In terms of what it meant for the overall values of the 
houses, between 1955 and 1980, there was almost a 75 percent 
collapse in real value, adjusted for inflation, of the values 
of the properties. This impacted not only the apartments and 
the homes where, you know, for a single occupied family, a real 
loss of dollars is a very negative impact on your net worth. So 
that this collapsing value was actually discouraging people 
from moving into the neighborhoods, encouraging--discouraging 
apartment owners from making the reinvestments, and certainly 
driving away the other development that would occur within a 
retail and residential neighborhood context, that makes a 
neighborhood viable and strong.
    As these neighborhoods have declined, our institutions have 
assisted us and stepped in to a void Grandview Hospital, the 
Dayton Art Institute, and the Saint Mary's Development Corp. 
have stepped in to try to address this. From the standpoint of 
Grandview Hospital, which was an institution landlocked as it 
grew, it was facing some substantial obstacles for growth and 
continuation. And of course, the neighborhoods themselves 
realized that the upkeep of 100-year-old historic houses is a 
challenge, and a challenge that is more and more difficult for 
an aging population that has less economic resources. What we 
determined to do in the face of that, and at the time when 
Representative Turner was mayor, we decided to take all of the 
institutions and the stakeholders, and form a strategic plan 
around that, which is now what we call the Renaissance 
Alliance. And we have been working toward harmonizing our goals 
and our actions, so that each of them--of our respective 
resources, and our resources are very varied, can work toward a 
common goal.
    The goals that we have identified and are working toward, 
as to make significant street scape changes to permit expansion 
of the hospital campus, improve the removal of blight, and 
facilitate the strengthening of new populations moving back 
within our neighborhoods. We've had a lot of improvements in 
place, and those are reported in my notes to the subcommittee. 
And I did want to basically identify that, at this point, with 
all of the things that are underway and improvements, that we 
have made a $108 million and $466,000 of improvements, either 
planned or committed with funding in place for must of those. 
And the city has, in parallel, worked $47 million improvement 
into this. And we hope that the census data coming forward from 
this point, will reinforce quantitative and qualitative data 
that will allow us to improve the retail component of large 
businesses looking at our neighborhoods, and our populations 
within the neighborhoods, in a favorable light, in making any 
decisions to invest in that.
    [The prepared statement of Mr. Barton follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you.
    Mr. Barton. Thank you very much.
    Mr. Clay. Thank you very much for that testimony.
    Mr. Bohardt.

                   STATEMENT OF DAVID BOHARDT

    Mr. Bohardt. Mr. Chairman, Congressman Turner, thank you 
for this opportunity to be here. My colleague, Dan, ran over a 
little bit, but I in advance agreed to yield to him some of my 
time.
    Mr. Clay. Great.
    Mr. Bohardt. So I'm hoping to take 3 or 4 minutes here.
    Mr. Clay. You will be fine.
    Mr. Bohardt. During the years 1993 to 2006, I had the 
privilege of serving as executive director of the Homebuilder's 
Association of Dayton. During that time, thanks primarily to 
the leadership of then mayor, now Congressman Mike Turner, the 
association partnered with the city of Dayton to sponsor 10 
Rehabarama and Citirama events. These events directly and 
indirectly have generated more than $50 million in private 
sector investment. And through stabilization of the city's 
close-in historic districts, permitted the 100 million plus 
economic resurgence of the city's downtown in the late 1990's 
to the current day.
    In every instance, the availability, reliability, use, and 
analysis of U.S. census data was incredibly important. In the 
case of Rehabarama and Citirama events, these data allowed us 
to understand the current social, economic, cultural and other 
demographic characters of neighborhoods targeted for 
reinvestment, permitting us further to understand how much 
investment was required by the public sector, before the 
private sector could be expected to do most of the heavy 
lifting, with respect to project development and finance. And 
the data also enabled us to project long-term impacts on local 
governments' tax revenue streams. I know you had the 
opportunity this morning to visit the homes of Rehabarama in 
South Park, and they're a very good case in point. As 
Congressman Turner mentioned, when the first Rehabarama was 
conducted in South Park in 2001, approximately $2 million of 
city subsidy was provided. In the homes you toured, and in 30 
others completely rehabilitated or underway, 100 percent of the 
costs, and probably close to $3 million will be shouldered 
entirely by the private sector.
    Taken together, the two Rehabarama events in South Park, 
and the additional investments they have encouraged, have added 
more than $5 million of appraised values to Montgomery County's 
property tax rolls, and approximately $3 million of additional 
annual household revenue, to the city's income tax rolls.
    In South Park and other neighborhoods served by Rehabarama 
and Citirama, the availability and accuracy of census data is 
the very first, an absolutely essential tool of community 
redevelopment.
    At St. Mary's Development, I'm executive vice president 
since 1989, we've brought forward approximately 30 projects, 
serving low income seniors and working families, total economic 
impact of plus or minus $200 million. For each of our projects, 
our financing is primarily low-income housing tax credits under 
Section 42 of the Internal Revenue Service Code. Again, the 
availability and accuracy of census data are critically 
important to these projects and literally drive the feasibility 
and location of low income tax credit projects.
    They enable us to identify, census tract by census tract, 
those low-income communities with the highest level of need for 
the housing for low-income seniors and working families. The 
designation of qualified census tracts under Section 42d of the 
IRS Code brings into a sharper relief those communities with 
the highest needs.
    Since proposed low-income housing tax credit projects 
seldom go forward unless they are located within the boundaries 
of qualified census tracts, the accuracy and reliability of the 
data that underlie them is absolutely essential.
    Mr. Chairman, Congressman Turner, I thank you for this 
opportunity to provide this testimony.
    [The prepared statement of Mr. Bohardt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much. Ms. Brandt, you may proceed.

                   STATEMENT OF TERESA BRANDT

    Ms. Brandt. Good morning, Mr. Chairman, Congressman Turner. 
I'm honored to be here today, and represent Dayton View 
Historic District. It was one of the neighborhoods that was 
lucky enough to have two Rehabarama's over the period of 1999 
and 2001. I've also brought in some pictures here this morning, 
so that you can have a visual. I know you got to actually 
experience South Park this morning. And I thought to have a 
little bit of equal time, I brought in some pictures of the 
various houses that are in my neighborhood.
    In an effort to paint you a picture of my neighborhood, and 
the redevelopment effort, I believe it's prudent to give a 
short background in the historical perspective of the area. 
Dayton Historic first established its historic district in 1977 
by the city commissioner here in Dayton, and then subsequently 
put on the historic register in 1984. In 1832, our first house 
was built, and it was an old farmhouse. And at the time, this 
area was located northwest of downtown, across the river to the 
city. And Dayton--and it is, as a matter of fact, but it was 
difficult to get to Dayton View from downtown, until the bridge 
came into play, and until ferries actually were transporting 
people back and forth across. So in many ways, my neighborhood 
was one of the first, ``what you would see as a suburb today,'' 
in the Dayton area. And as such, kind of like a suburb, the 
character of the homes were very, very different from the 
character of the homes in some of the other areas. Very 
frequently, we had very large homes. And today, we still have 
three of our mansions that are still in existence, although 
they have fallen to a bit of disarray.
    During the 1930's and the rising popularity of the area 
with its closeness to the city of Dayton, the homes began to be 
dissected and subdivided. And they fell into disrepair even 
more and more, as time went by, and as the populations shifted 
for the industrial revolution. And through the war efforts, 
people were trying to go downtown to work in the factories, and 
various other places in the area. The homes became more and 
more dissected. Sometimes houses that were--for example, one of 
my mansions is 8,000 square feet, it had 32 apartments in it 
once upon a time. Those are teeny tiny--I mean, basically one 
bedroom apartments. And it wasn't until the district became 
historic, that it actually started to turn backward. And more 
and more, people are moving back into the area. With the 
Rehabaramas, and the first Rehabarama, they did 10 houses in 
the neighborhood. And the city takes the most blighted 
properties, the biggest eyesores, and starts renovation. And in 
a couple of the cases, they had to demo a house that was 
sitting on a lot, because it was just economically unfeasible 
to redevelop it.
    And so you see, several of the houses that were rebuilt not 
quite exactly the same as they were originally, but they are 
much, much nicer. And the single-family homes that have been 
built in place, have stayed pretty stable. People that have 
moved into them, haven't really moved back out of the area. In 
2001, they took an experiment, and decided to do some 
condominiums in one of our old apartment buildings. Hopefully, 
taking something that Mr. Barton was talking about, and reusing 
it in a better way. That has been marginally successful, from 
the perspective that it took much longer in my neighborhood for 
the condos to take root. Some of those, for example, didn't 
sell for the first time. They were redone in 2001, and it was 
up to 2005 before the first--before the final one actually 
sold. In my neighborhood, a part of it is because of the 
demographics of Dayton View. We are in a bigger planning area 
in the city of Dayton, which is 15 percent white, 85 percent 
minority. In Dayton View Historic itself, we don't really keep 
track of the exact demographics for it. But we kind of did a 
quick eyeball discussion, and we figured out that there were 
probably 30 percent white, 70 percent minority in the district. 
That has some impact, too, because it also impacts the economic 
viability of some of this area. And I put in my written 
testimony, all of the docs and all of the data regarding sales 
and redevelopment efforts. But one of the things I did want to 
say in final, is that it's very important, as the census data 
changes and new demographics develop, that more concentration 
be put on the urban areas, because they are the most depressed. 
And they're sometimes the hardest ones to bring back. It's very 
easy to build a house out in the middle of the cornfield, but 
it's very, very difficult to redevelop and make an area 
reemerge, once it's gone so far downhill.
    [The prepared statement of Ms. Brandt follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much for that observation. Ms. 
Gasper, please proceed.

                  STATEMENT OF THERESA GASPER

    Ms. Gasper. Thank you for the opportunity to present today. 
I hope you enjoyed the tour. As you can see, we're a little 
proud of our heritage of the Wright Brothers.
    Mr. Clay. Yes, I do.
    Ms. Gasper. As mentioned I am one of the two investors 
behind this year's Rehabarama in South Park, which just 
finished up last Sunday, a week ago yesterday. The other 
investor is Michael DiFlora from the Home Group. I didn't 
realize, until after I submitted my written testimony, that he 
wasn't going to be here today. Being the engineer, he would 
have provided a lot more statistical data. In his absence, I'll 
try and focus more on the numbers, and less on the stories of 
our experience, also known as our adventure.
    I confess, we did not rely heavily on census data, and that 
is primarily because the reason we chose South Park, in 
addition to Karin getting a hold of me and not letting go, is 
that's the neighborhood I grew up, and I'm the fourth 
generation, on my father's side, to live there. We moved out in 
1972. And since I've left, I always wanted to come back and 
revitalize it.
    This is the first time Rehabarama has been done with the 
private investment. The city did provide $100,000 to the 
Homebuilders Association of Dayton, who market managed the 
show. To date, Full Circle Development and the Home Group has 
invested between $2 and $3 million of private capital into 
South Park. We made a deliberate decision to not use public 
funding, because of the shrinking pool of resources.
    Michael and I selected South Park, primarily due to the 
neighborhood's leadership, passion, tenacity and proactive 
problem solving. We decided our critical number would be 
reducing the number of vacant properties. When we started 18 
months ago, there were more than 80 vacant houses. Today, we 
have a total of 30 homes, and one vacant lot. We did have a 
second lot, but we sold that recently to an architect who moved 
into the neighborhood. Our process has been to visually 
identify the distressed homes. Again, we go after the worst and 
the blighted. We rely heavily on tax records, county tax 
records, to find out who owns the houses, if they're delinquent 
on their taxes. And if it is an absentee owner, how many 
properties that they may own. The neighborhood leadership 
worked with us very closely, in letting us know the property 
was behind in its tax bill because of a medical hardship, or a 
personal hardship, or if they were a nuisance to the 
neighborhood. And very often, they helped us track down the 
owners, and their contact information in some interesting 
fashion.
    Our primary contact is a vacant home, with an absent-type 
owner, who's behind on their taxes. Predator lending has had a 
real impact on that neighborhood. Occasionally, we have been 
able to buy out absentee landlords. A couple of weeks ago, 
Business Week did an article on foreclosure prices. One of the 
numbers they talked about, was that a foreclosed home reduces 
the property values of every home within 200 feet by 1 percent. 
Locally, I've heard numbers anywhere from $1,500 to $5,000 per 
house. We believe that by targeting vacant properties, we can 
make them tax productive again, and increase the values of the 
adjacent properties simultaneously.
    Vacant properties often attract theft, vandalism, and can 
become a hideout for drug dealers or vagrants. Decreasing the 
number of vacant properties, raises the property values, which 
leads to a great pool of resources for the city and county, as 
well as reduces the need, then, for services such as housing 
inspection, police, and fire.
    Our goal is to make these homes as maintenance free as you 
can for a 125-year-old house. We focus on structural, 
mechanical issues, such as roof, plumbing, water heater, 
wiring, windows, doors, porches, sidewalks heating, air 
conditioning, kitchens, and baths. There's not a lot left after 
that. Again, making it very expensive to rehab these homes. But 
our goal is to make these homes owner occupied dwellings, and 
to make them too nice and too expensive to become renter 
properties.
    There is a rule of thumb, at least here in Dayton, that in 
order for a neighborhood to remain stable, it needs to have a 
minimum of 60 percent of the structures as owner occupied. 
According to the last census data, the South Park planned 
development area, not just the historic district, is 32 percent 
owner occupied. You see, we have a lot of work cut out for us.
    Some of our challenges have been property acquisition. Very 
often, a house is tied up in probate, or in an estate. And if 
there are any surviving family members, they're not sure who 
had the legal right to sell it. Other times, the impacts of 
predatory lending, the mortgage value is much higher than the 
market value, and it's impossible for an owner to sell. And now 
we're seeing, because of the show, people are opportunists, and 
are trying to increase their property asking prices.
    We've had a very cooperative, but unfortunately ineffective 
housing department and housing court. Current ordinances do not 
have enough teeth, and absentee owners have learned how to work 
the system. They do realize, that often times, the client is 
cheaper than the repairs, and the work goes unfinished. What 
surprised me, was lower income neighbors who believe the rich 
people were trying to make it for them to live in South Park. 
Their displeasure is often shown by theft, vandalism, or 
sometimes just hurling insults in general.
    So while this has been a private investment, I believe the 
ideal situation is a combination of public and private 
resources, and not so much capital from the city, but resources 
as far as street maintenance, police, and fire. Lessons 
learned, you can't do this without strong neighborhood 
leadership and support. And while noble on our part, this 
venture needs to be profitable, in order to attract other 
quality investors, to join our cause.
    Again, thank you for the opportunity, and I'll be happy to 
answer any questions.
    [The prepared statement of Ms. Gasper follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much for that testimony. Ms. 
Manovich.

                  STATEMENT OF KARIN MANOVICH

    Ms. Manovich. Thank you. I really appreciate the 
opportunity to be here, Chairman Clay, Congressman Turner. I'm 
speaking today, specifically on the impact on population of 
South Park Rehabarama. South Park, as mentioned earlier, was 
fortunate enough to have two Rehabaram shows, one in 2001, 
where five dwellings were completely renovated, and three new 
construction projects were showcased. And in October 2007, 
which you toured this morning. The impact on Rehabarama on 
South Park has been significant and multi-faceted. The first 
Rehabarama show, the eight houses were done--all five of the 
houses sold either before or during the show. And three houses 
sold within 2 months of the show. The most distressed 
properties were targeted with the census data used. We had 14 
percent of our housing stock was vacant in 2000 census, with 54 
percent rental property and 32 percent owner occupied. The goal 
of Rehabarama was to reverse that trend to increase owner 
occupancy, decrease vacants, and reduce the number of rental 
properties, with South Park being the largest historic district 
of Dayton, with nearly 800 homes to tackle. Prior to 2001, the 
neighborhood had been struggling on its own without no outside 
help to take on these properties house by house. When 
Rehabarama occurred in 1993 in another historic district, South 
Park and many other neighborhoods lined up, as we saw the 
impact on that neighborhood was stunning. And when we finally 
had our turn in 2001, the asking price of the homes was 
approximately 30 percent above the current market values in the 
neighborhood. Most of the homes were modest in size, with the 
smallest being just under 800 square feet. Once the show was 
over, the high publicity and high attendance of the first show 
where several hundred people came and toured the homes, were 
professionally decorated by the Dayton society of interior 
decorators, that had an impact on the neighborhood that I 
didn't expect. It lasted for probably 2\1/2\ years, where new 
residences were attracted into the area to purchase the other 
homes, not just the homes that had been restored. But also, 
other residences of the neighborhood felt competent in 
reinvesting, by doing additional homes. The property values in 
the neighborhood almost immediately went up about 30 percent.
    As a part of that Rehabarama, there was a matching grant 
for exterior home improvements to homeowner occupied dwellings 
in the neighborhood. Everybody took advantage of that, and used 
up the entire fund. So we had a domino effect. We had the eight 
homes from Rehabarama. We had the exteriors of the existing 
homes. All of this combined to really improve the image of 
South Park, and fuel the demand for the housing stock that at 
times, exceeded what we had available. So we saw the first 
Rehabarama as a catalyst, that drew people back into the city, 
increase the number of taxpayers by--occupying uninhabitable 
homes. All the original buyers from the 2001 show have remained 
in their homes, with the exception of one, who moved out due to 
a job transfer. And he was able to quickly sell his house in 
2006 for 14 percent above the Rehabarama asking price. So we 
have seen a huge positive influence from the first Rehabarama. 
And when we had an opportunity to attract private investors 
into the neighborhood to do multiple homes.
    We did go to the city and lobby for money for the show, 
which the city quickly and generously agreed to do. Second 
Rehabarama, likewise, has had a domino effect. Before we even 
had the show, we were recipients of the American Institute of 
Architect's 150 grant, due in large part to our plans for 
Rehabarama 2007. We felt--we felt that we could actually 
implement some of their suggestions in the Rehabarama show, and 
that was crucial in us being selected for that grant. In fact, 
in this show, we have three examples of some of their work in 
the homes. We have Infill Designs and Renovation Designs that 
are geared toward attracting the demographics, that we feel 
that we can attract back to the city, the aging baby boomers. 
Many of our homes have been designed to not only appeal to 
young people just starting out, but also people as they age, 
one-story properties.
    We've seen a significant impact from both Rehabarama shows, 
in that the publicity surrounding the event, and the number of 
people coming into the event has managed to attract people to 
South Park proactively. We've been able to change our 
demographics since the first Rehabamara by increasing a lot of 
the incomes, and the professional people who live in South 
Park. For example, since the first show, we've added 
approximately 25 University professors, 3 physicians, 3 
architects, multiple attorneys, healthcare professionals, Air 
Force officers, and several business owners. We should see in 
the next census, an increase in the income level South Park, as 
well as a change to the level of owner-occupied and vacant 
properties.
    The most significant benefit of Rehabarama is the education 
of thousands of suburban dwellers who actually come into the 
show, about the benefits of city living, especially the sense 
of community that it brings. In the midwest, there's a negative 
stigma associated with many cities, where it's assumed that 
individuals only live in the city if they're poor and don't 
have other options. Bringing people into the city to dispel 
these notions is a crucial component on the changing of the 
culture, in motivating people to return to the city. Allowing 
people to tour the upscale, attractive and affordable homes 
that Rehabarama has showcased, sends the message that city 
living is desirable, and many people live in the city by 
choice. Thank you.
    [The prepared statement of Ms. Manovich follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you so much, Ms. Manovich.
    Ms. Neal, you may proceed.

                STATEMENT OF IDOTHA BOOTSIE NEAL

    Ms. Neal. Good morning, Mr. Chair, and good morning 
Congressman Turner. Welcome to the city of Dayton, the 
birthplace of aviation, the center of innovation, and the home 
of the Wright brothers and Paul Laurence Dunbar. As you know, 
my name is Idotha Bootsie Neal, and I'm the president of Wright 
Dunbar, Inc., which is a nonprofit organization dedicated to 
the economic and community development of the historic 
commercial corridor within the Wright Dunbar village.
    Congressman Turner, welcome home. I'd like to thank you for 
inviting the congressional subcommittee to hold the hearing 
here in Dayton, Ohio. I'd also like to thank you for all of the 
hard work that you're doing to help save America's cities, and 
which will aid in rebuilding and transforming the 
neighborhoods.
    Let me tell you just a little bit about the Wright Dunbar 
neighborhood. It's the place where the Wright Brothers invented 
the plane and African American poet Paul Laurence Dunbar began 
his career. For decades, Wright Dunbar was a thriving 
neighborhood with middle-class families, and a strong, vibrant 
commercial corridor. However, as most urban cities experienced 
in the late 1960's, and 1970's, and 1980's, and as a result of 
the devastating race riot in the mid 1960's, the Wright Dunbar 
community suffered significant disinvestment until the 1990's.
    Well as you know, under your leadership, when you were 
mayor of the city of Dayton, Congressman Turner, in partnership 
with me as an elected official on the Dayton City Commission, 
an important initiative was developed, as you've heard, 
Rehabarama and Citirama. These programs were targeted in 
residential areas where the housing stock was deteriorating, 
vacant lots were the norm, and high crime was simply a way of 
life. There were very few stores open, and little hope for any 
future commercial development.
    In 1997, the city of Dayton targeted the Wright Dunbar 
neighborhood for redevelopment, and helped the first ever 
Citirama, a program which began to give way to a rehabilitated 
or newly constructed homes. Prior to the cities initiative, 
many abandoned lots and existing homes were valued at $5,000 or 
less. Since Citirama initiative was launched, property values 
range from $79,000 to $225,000. Now, 10 years later, there are 
several housing construction projects still underway. One 
partner include ISUS, a charter school, partially funded by 
Youthbuild. They're building over 70 new, low to moderate homes 
in the area. The Innerwest Community Development Corp., in a 
joint venture, has built 70 newly constructed single-family, 
lease-to-purchase homes. Ecumenical Neighborhood Development 
Corp., another community development partner, has built 50 new 
federally subsidized single-family homes. And private sector 
developers are continuing to acquire lots in the Wright Dunbar 
neighborhoods, to build single family market rate homes.
    The 2000 census tract for the city of Dayton would, in 
fact, appear to be dismal, one where we see individuals leave 
the city. However, the future census data will clearly 
represent a reverse in the trends of families moving back into 
the Wright Dunbar historic urban neighborhood. At present, the 
surrounding neighborhoods are attracting a diverse mix of 
families, young professionals and retirees. These families will 
need services and amenities to enhance their quality of life. 
As stated earlier, the primary mission of Wright Dunbar, Inc. 
Is the redevelopment of West Third Street commercial corridor 
within the historic district.
    Strong American neighborhoods are the key to rebuilding 
strong urban core cities. The probability of attracting 
businesses to this area would be significantly lower if the 
Citirama housing initiatives had not been implemented in 1997. 
Wright Dunbar, Inc. Is working diligently to attract businesses 
that will bring the necessary goods and services, along with 
employment opportunities for neighborhood residents, which were 
critical components for stabilizing or transforming a 
neighborhood. These opportunities will positively stimulate not 
only the local economy, but the national economy as well.
    Without the infusion of financial resources targeted to the 
areas where poverty exists, unemployment is a way of life, 
health challenges are at a crisis, and housing and 
infrastructure is deteriorating. The future of America's core 
cities is dismal.
    Census data clearly identifies the areas where the needs 
are the greatest. Congressman Turner, as you know, our decision 
to fund Rehabarama and Citirama's throughout Dayton was based 
on this data.
    Since 1997, the Innerwest urban neighborhood of historic 
Wright Dunbar received $107 million of public and private 
sector resources. Those resources were leveraged as a result of 
the initial investments made by the Federal and local 
governments. The city of Dayton's Rehabarama and Citirama 
initiatives were the catalyst that ignited community 
development. And those initiatives in turn have ignited the 
momentum of commercial redevelopment, and the potential for 
private sector investment.
    It is critically important that accurate census tract 
information be collected, and Federal funds, and special tax 
initiatives, and programs and products be targeted to those 
neighborhoods that have the greatest need. Thank you, 
Congressman Turner. Thank you, Mr. Chair, for coming to Dayton, 
and hearing what we have to say about the redevelopment in our 
community, and how census tract information is very important.
    [The prepared statement of Ms. Neal follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Thank you very much, Ms. Neal. I'm--it's just too 
bad I couldn't get to the Wright Dunbar neighborhood, also.
    Ms. Neal. Let me please extend a personal invitation to 
come back.
    Mr. Turner. Actually, we're not far. When we're on our way 
to the airport, we might go there.
    Mr. Clay. Thank you. Thank you. We will now enter into the 
question period. Congressman Turner can start us off.
    Mr. Turner. I've got basically three questions. One that 
goes to the issue of the availability of census information, 
and capturing what you're accomplishing. The second will be 
about the issue of the public policy of Rehabarama, that we're 
investing in market rate housing, as opposed to the Federal 
programs that tend to target poverty. And the third will be, in 
ways that we might be able to greater encourage these types of 
programs like what Theresa's doing, where she has a separate 
entity owned privately.
    Bootsie, I want to start with you on a question of, you 
know, the Wright Dunbar neighborhood. Although there were some 
structures that were there, largely was an area where there 
were vacant lots, and vacant buildings. The investment that has 
happened with Rehabarama, and Citirama, and then with the 
Youthbuild project with ISUS, has a neighborhood not only of 
changing demographics of the resources that are there, but also 
really, a whole new community that is populating the area where 
there had not been a concentration of population.
    You're marketing the Wright Dunbar strip for commercial 
development. And it must be difficult, as you go to commercial 
partners, trying to encourage them to come into an area, that 
you can see when you drive through, and when you walk the 
streets and see that the new families that there--the new 
homeowners, but that you don't have a piece of paper you can 
put in front of them, and show them the change. How does that 
work?
    Ms. Neal. It's a challenge. It's a challenge. However, 
we're going to continue, in terms of our marketing, in terms of 
cultivation. We are fortunate to have National Park as one of 
our anchors, so we're able to attract a number of visitors to 
come to the community, so that partnership has been critically 
important. We have been very fortunate, with the residents that 
have come back to the area. Two things have occurred with 
Wright Dunbar. No. 1, everyone was not dislocated. Individuals 
who have been able to stand through the drugs, the 
prostitution, the disinvestment have been able to maintain 
their homes. But also because of Rehabarama, Citirama has 
brought a very diverse mix of individuals to the community, so 
it's doing exactly what we would hope that it needs. It's been 
a struggle without support from the Federal Government. We've 
been the recipients of the EDI grant, VA HUD grant, bringing 
those sources to the commercial development in order to 
stabilize buildings without those kinds of dollars, it would 
not have happened. We now have all of our properties 
structurally stabilized. Roofs are on the property. But what we 
need, is assistance or continued assistance to get those 
buildings from a shell to a white box. I then believe, that 
with that gap being filled, that businesses will come to the 
area because of the quality of the housing, because of the 
diversity of the community that's been attracted to the area, 
and simply because it's a good economic move, because we're 
close to downtown.
    We have great accessibility because of 70 and 75, that the 
commercial development will follow. As you're beginning to see 
along the Brown Street commercial corridor, near the South Park 
and UD area, which was a part of the Genesis project, where 
there were two Rehabaramas. So we're very confident, that with 
continued partnerships, that we'll be able to have the 
commercial development.
    Mr. Turner. That goes to my next question. You talked about 
the people in the community, were able to stay in the 
community. There were a number of Federal programs and State 
programs, local dollars that were stacked, so this wasn't just 
market-rate housing that was undertaken. But I'd like Karin and 
Bootsie to talk about the issue of the public policy of market-
rate housing. People sometimes criticize, when the project has 
begun, that there is a subsidy that is going to market-rate 
housing. There aren't Federal dollars that you can go and get. 
Most of those dollars are tied to low and moderate income 
housing. But when you do a market-rate housing project, the 
criticism tends to abate after the project is done, because 
people see what you have reclaimed, the historic nature of the 
community. You have the structures that are now there, have 
improved the quality of the neighborhood. But also, people see 
that it's not economic segregation, it's actually ending 
economic segregation. You're making a more diverse community. 
The people who are there, stay in the community, and 
participate in the benefits of the transformation. But also, 
our demographics of our communities are diverse. And we not 
only do the market rate project of Rehabarama, but also then 
low income projects, Youthbuild projects, low income tax code 
projects, all within the same area. So the neighborhood remains 
diverse. Bootsie, could you talk about that for a moment? And 
Karin, I'd also like you to comment about your neighborhood.
    Ms. Neal. I think it's a great tool, the fact that we were 
able at a local level, be able to put together a development 
fund, to help with the initial investment. Individuals actually 
criticized us in a real way, in terms of investing in the first 
four houses in Wright Dunbar. And it took substantial subsidy, 
in order to make that happen. But of course, that initial 
investment has now spurred millions of dollars above both 
public and private sector dollars. I don't believe that if we 
had not made that investment, that this area would experience 
the kind of redevelopment that is currently undergoing. Had we 
not made that investment initially, you would have seen 
individuals continuing to live in poor housing, and in an area 
that was just riddled with a number of social challenges. I 
think that because of your leadership, because of the 
partnerships created with the HPA, and other organizations that 
we've been able to now change the neighborhood, keep people 
there, attract new individuals, impact significantly the income 
tax revenue for the local government. And even more 
importantly, create a place where people feel safe, and they 
can raise their family and their children, and have the 
benefits of what I think is great in urban cities, and that's 
such diversity in close proximity to a lot of places.
    Mr. Turner. Karin, you have been in South Park a long time. 
And I know you know, as one of the benefits of the community, 
is the diverse population that is there. Can you talk about how 
Rehabarama fits within the economic diversity of the community, 
and what you see as the benefits of defeating economic 
segregation?
    Ms. Manovich. We're fortunate in South Park, to 
automatically have economic diversity, and have had it most of 
our history, due to our housing stock. The founder of National 
Cash Register Corp. platted our neighborhood originally. He 
wanted his factory workers to live among his executives. So we 
have four of our 5,000 square foot mansions interspersed with 
three room cottages, similar to the one you saw today that was 
basically three or four rooms. So our neighborhood has been 
economically diverse since its inception.
    Now, Rehabarama, the first Rehabarama, as I mentioned, had 
a housing less than 800 square feet. And we had several small 
cottages in this one, that maintains our economic diversity. 
Our asking prices range originally for the first Rehabarama, 
the lowest one was close to 100,000. And the highest one this 
time, was 250,000. So there's a wide range of affordability in 
the houses. You're not just going to get really wealthy people. 
You're going to get a variety of homeowners.
    The other interesting thing about our neighborhood that 
makes it attractive and diverse, is the fact that many of the 
houses were originally built as multi units. Now, we've 
converted many of them back to larger single-family homes, but 
we will always have a significant rental population in South 
Park due to the--due to the architecture. A lot of the cottages 
are too small to be ever owner occupied. And so the 
neighborhood has worked to make sure that the rental property 
is kept at a level that is conducive to good living 
environments. So many of us--I, in fact, have rehabbed about 13 
rental units in South Park myself, that I maintain, that I can 
make sure that people have good, affordable housing, and that I 
can keep the economic diversity alive in our neighborhood. And 
many of the residents have done the same thing. There's 
probably at least 25 residents who are landlords, not because 
that's their business choice or their calling, but in order to 
provide good, safe, affordable housing for a variety of 
economic levels in the neighborhood.
    Mr. Turner. Dan, you have institutional partners in your 
neighborhood. You were talking about--talk a moment about their 
interest, what brings them to the table?
    Mr. Barton. There's a couple of things that brought them to 
the table. One, is within an established neighborhood, very 
often there's infrastructure that has landlocked the parcels. 
And the expansion can either take a cooperative or a 
confrontational path. We wanted to make sure that we 
facilitated Grandview and the other institution, having a path 
that was--where we would all work together.
    At the same time, they have resources that we don't. What 
we've tried to do is, take advantage of their resources that 
they could leverage for acquiring blight and removing it. And 
in either swapping or allowing that land to go into new 
development, either for their campus, or for new housing to be 
created. They also understand, that they can't thrive--they 
can't encourage patients to come to their hospital, doctors to 
operate in their hospital if the perception is, that this is a 
terrible and unsafe neighborhood.
    So shoring up the neighborhood around the institution helps 
the institution. And the institutions have resources that will 
help us achieve our goals, in terms of removing blight, and 
facilitating new construction. We're also looking at Grandview 
very heavily, because they are a training hospital. We want to 
encourage those people who train there, and then become a part 
of the community for their permanent career, to invest in 
buying into the neighborhood, again, putting economic strength 
back into the mix of the population.
    Mr. Turner. David, your experience has run the gamut, from 
being the head of the Homeowners Association and bringing their 
resources into the inner city, which was unusual, to now being 
vice president of the faith based St. Mary's Neighborhood 
Development Corp. that does senior low-income housing, tax 
credits, and housing rehabilitation. When you look at the urban 
area, one of the impediments that we have to economic 
revitalization, neighborhood revitalization is our aging 
housing stock. You have seen that, as you have gone for 
rehabilitation, and then in ways that you've brought in new 
construction. Can you tell us some of the demographics of the 
neighborhoods you see, not of the populations, but of the 
structures themselves, the infrastructure that impacts the 
ability to be successful for housing development?
    Mr. Bohardt. Well, Dayton is--Congressman Turner, Mr. 
Chairman, Dayton is and it's neighborhoods are severely 
challenged because of the age--first of all, because of the age 
of our inventory, second because of the obsolescence of the 
inventory. Almost everyone knows that Dayton has very old 
housing stock, but not as many realize that as Theresa does 
now, that all that housing stock is anything less than 
obsolescence, simply because there's only one bathroom in the 
house, or there aren't enough bedrooms in the house, or there 
just isn't enough volume in size to the property to make 
rehabilitation cost effective.
    Third, I think, this relates to the purpose of this 
hearing, is that the census data are not neighborhood friendly, 
in the sense that the gentleman from the Ohio Department of 
Development had mentioned the lag time factor with the census. 
It only takes between 12 and 18 months for a neighborhood block 
base to totally implode. We've seen that in Dayton, in the last 
5 to 10 years, and especially in the last three to four, going 
primarily to the impacts of predatory lending. And so it would 
be useful, within the quiver of economic redevelopment tools 
that we had, I think, if census data could be ratcheted down, 
and be able to focus and telescope on specific neighborhoods.
    I'll just make one more point, and I'll be quiet. The 
average median income, which is the barometer that we use in 
many facts to determine housing economic development policies 
in the Dayton Metropolitan statistical areas, $59,890, or 
higher than the Los Angeles, California AMI. But if you look 
just at the city of Dayton, for example, that income would 
barely be above $25,000 per house sold. So if we had--as I 
said, if we had more highly refined data and Federal policies 
that essentially enabled us to use that data, to get access on 
a higher priority basis, no offense to Congressman Turner's 
constituency in Warren County, they don't have the 
neighborhoods that the city of Dayton has. They don't have the 
needs that the city of Dayton neighborhoods have. So if we had 
Federal policy based on census data, Federal funding policy 
that actually enabled us to do finer precision targeting for 
economic development than cities like Dayton, cities throughout 
Ohio and the country. I think would be better served, and we 
would have a better chance of revitalizing a lot of those 
neighborhoods.
    Mr. Turner. Mr. Chairman.
    Mr. Clay. Thank you. Thank you so much. I have a panel wide 
question, and Ms. Manovich touched on it somewhat, you know. 
And I'm very impressed with the rehab and the Rehabarama, 
sounds something like Obama, but----
    Mr. Turner. This came first.
    Mr. Clay. But I'm really curious as to how much 
displacement occurred in these communities. And we can start 
with Mr. Barton. You touched on multi-family housing, and how 
you maintain that in those communities that are going through 
this transition. Do you actually get the people to remain in 
that community, or do they have to leave? Because see, if they 
leave, then it would probably be difficult to get them back? 
And then, we are almost running in place, when it comes to the 
census, because you're not adding new people, if people are 
leaving while some are coming. Is there--does Dayton, or does 
the rehab community have much of a policy when it comes to 
multi-family housing and actually, the diversity of those who 
are moving back to the city? I'll start with you, Mr. Barton. 
You start, and everybody think about a response. Go ahead.
    Mr. Barton. Within our initiative called the Renaissance 
Alliance, we're not displacing anyone. We're taking, you know, 
occupied buildings, unoccupied land, and building new, so that 
the remaining structures are supported, and the accumulative 
population is coming up. Our population in the Grafton Hill 
area was the highest density in the county, but it has declined 
from its highest density in the early 1970's, to a level now--
where we're probably at about 65 percent of the population we 
had at that peak. That unoccupied portion is what we're looking 
to redevelop, so that we can attract people back to something 
that the market wants now, that isn't there, and that diversity 
strengthens.
    And one of the things that we're doing, because we're 
sensitive about that very issue, is we're working on 
mechanisms, so that the market rate structures that are being 
built, are giving us an income stream that will assist us with 
more blight removal and renovation. And in some of that blight 
removal, such as Grand Place in our neighborhood--at Grand and 
Salem, our targeted for low mods, but we end up with a better 
accumulative quality of life for everyone within the 
neighborhood.
    Mr. Turner. Great.
    Mr. Clay. Thank you.
    Mr. Bohardt. Mr. Chairman, Congressman Turner, in 1970, the 
city had housing inventory of 270,000 people. The city 
population now is plus or minus 152,000 or 153,000 people. 
About 15 percent of all of the house units in the city of 
Dayton are being boarded up, or vacant. And it manipulates very 
much to Dan's issue. Our issue is not with dislocating 
households. Our issue is with stabilizing neighborhoods, 
getting sufficient level of investment, so that we can both 
maintain the residents that we have in our neighborhood, and 
attract more people to urban neighborhoods. So I agree totally 
with Dan.
    Mr. Clay. And you know, Mr. Bohardt, that is the challenge 
of quite a few older urban communities, is how we get people 
back to the urban core. Because I represent St. Louis, 
Missouri. And over the last 50 years, we've lost over half a 
million people in the city itself. And so now that's our 
challenge in St. Louis and older urban cities, how we build it, 
and make it attractive to bring people back.
    Mr. Bohardt. I would add, too, Mr. Chairman probably 
constituents with your experience, as we do that, I would hope 
that Federal policy would not encourage the reconcentration of 
large portions of our population, in appropriately large big 
box housing communities. And that much of the issue that I 
mentioned, and Dan mentioned earlier, would be solved if we 
found a rational way to disperse in an even handed way, housing 
that was served the needs of all of our citizens, irrespective 
of how much they earned.
    Mr. Clay. Thank you for that response. Ms. Brandt, anything 
to add?
    Ms. Brandt. I think that we are a little different. Because 
back in the really dire time of any neighborhood, probably 40 
percent of our neighborhood was abandoned houses. And now we 
are probably less than 10 percent, that are abandoned houses. 
However, the houses that are there have been converted back to 
single-family homes. So we've actually probably actually raised 
our population in the area from that. But we are also unique 
because we are the highest minority level of all of the 
historic districts.
    Mr. Clay. Ms. Gasper.
    Ms. Gasper. Reiterating what you heard already, we are 
targeting vacant houses. We rarely go after owner occupied. And 
only in a couple instances have renters been moved out of a 
property, and they stayed within the neighborhood. If you are 
familiar with the concept of broken windows, the more eyes you 
have on the street, the less crime you have. I think those that 
will be displaced are the ones that don't want to be watched. 
And they'll pick up--bad guys will leave if you watch them 
enough. I feel too, the existing neighbors feel like they can 
now safely reinvest more in their homes, and realize that they 
stand a better chance of getting that investment back out, 
should they decide to sell down the road. I think too, what's 
working in favor of cities right now, people really want to 
know their neighbors. And I think they're getting really tired 
of the cookie cutter nature of the suburbs, and realize that if 
you had gone to the fifth beige and brick house on the right, 
you have gone too far. You need to go to the fourth one, that 
factors into it. And also, I just was--as a side story, I read 
on a recent blog post regarding Rehabarama, somebody said that 
they're from the suburbs, and Rehabarama introduced them to the 
city of Dayton they'd never seen before, and they'd totally 
rethink their opinion of the city of Dayton as a result.
    Mr. Clay. How about, have you noticed--I've heard you 
mention--several witnesses mention property values have 
increased. With that increase of property values, has there 
been an overall reduction in the insurance rates for home 
insurance, as well as auto insurance? You know, all of those 
things impact disadvantaged neighborhoods in a negative way. 
With the new--new neighbors moving in, has that helped in that 
area?
    Ms. Manovich. It hasn't changed yet. We haven't seen it 
change.
    Mr. Clay. You're still pretty high?
    Mr. Turner. We're pretty inexpensive here in Dayton anyway. 
I don't know that they could get much lower.
    Mr. Clay. OK. He's bragging. He's bragging now. Go ahead, 
Ms. Manovich.
    Ms. Manovich. I'm going to echo what everybody else said. 
We're not really displacing people. We're filling vacant homes. 
In South Park, we've aggressively tried to increase our 
population by going after the people that we think would be 
most likely to settle in the neighborhood. We border on a major 
university. And we could get initiative with them, where we're 
mailing South Park literature directly to out-of-town employees 
with their contract for hire, so that they have in their hands 
all of the information on South Park, and why to live there. 
We've managed to attract a number of professors into the area. 
We've already gone with Miami Valley Hospital and approached 
them about doing a summer program with their walking distance 
from the neighborhood, also, to work on getting their interns, 
both as renters and as an owner occupants in the neighborhood. 
So we're going out aggressively target marketing people most 
likely to live in the neighborhood, and the selling the 
neighborhood on that. With the university, we actually bring 
the people in private homes on their relocation weekends, and 
introduce them to other professors in the neighborhood, and 
really sell city living in the neighborhood very aggressively. 
We feel in the next census, that our population will grow 
because of bringing the new people in.
    Mr. Clay. And you mentioned with the original plat and of 
the neighborhoods, that will maintain the economic and probably 
racial diversity of this community?
    Ms. Manovich. It's very affordable. We always say we have 
something for everyone, in terms of housing.
    Mr. Clay. Ms. Neal.
    Ms. Neal. We clearly did not displace anyone, because there 
was no one there, except some diehards who had strong kinship 
to the community. But we had a lot of vacant lots, and that was 
what is unique about Citirama. It was actually new Infill 
construction. So bringing the individuals back to the community 
has been a challenge. And also the fact that because of the 
leadership at that time, we made a conscious decision not to 
displace even those who were there. Because as you said, once 
they leave, it's hard to get them back. And I ditto what all of 
the other witnesses have said. But I would truly say one of the 
greatest challenges in terms of redeveloping and transforming 
an inner city core neighborhood, is to bring the goods and 
services that people need. We're, in fact, going to be losing 
within west Dayton, Kroger's, one of our grocery stores. We 
will not have, unless you have reliable transportation after 8, 
you will have to drive almost 10 miles, in fact, to get an 
aspirin. So commercial development in those kind of products 
and tax programs that will encourage private sector to not only 
come to the neighborhood, make key investment, but be obligated 
to stay for a significant period of time. Once, in fact, they 
receive those benefits, so that the families within those 
communities can have goods and services. So it's not just 
rehabbing. The homes are critically important, but the 
commercial development that will bring those goods and services 
as well as the employment opportunities for the residents of 
those communities as well.
    Mr. Clay. Thank you so much. Mr. Turner, anything else?
    Mr. Turner. One closing question. Theresa, when you look at 
census data, it's to take a snapshot of what is. So many 
people, when they look at that data, have an inability to see 
what could be. And you had the benefit with South Park, and you 
had a family familiarity with it, and an affinity, where you 
could look at what could be. Your investment in Rehabarama, 
you're continuing to show others what could be in Dayton 
neighborhoods, to bring people in. What are some of the things 
that you would say to people who are considering trying to have 
that forward vision of what could be about urban areas and 
urban neighborhoods?
    Ms. Gasper. You have to be thick skinned, bring plenty of 
Dramamine for the roller coaster ride. I feel very turfy toward 
the neighborhood. I may not live there right now, but it's 
always been mine. I worry about what type of investors will 
come into the neighborhood now. Will they just be trying to get 
rich quick, or will they have an honest commitment to it? I 
look at this as a way of protecting the investment people that 
care, and others have made. They have put a lot into their 
home, and it is their single largest investment. And I think 
that investment needs to be protected. So encouraging others to 
do so, it's going to be a hard sale, because these houses are 
so badly abused. And they require so much, and to try to take a 
Victorian home that has lots of small rooms, when people want 
an open floor plan today is difficult. So we have to be 
creative. We do have several projects underway. We're taking 
two very small cottages, and making one-medium sized family 
home. We're taking doubles, and converting them into singles. 
So I think you have to be creative, but you also have to have 
guts to do it.
    Mr. Turner. Theresa, I want to thank you for what you're 
doing, because you have picked up on the energy that's in the 
neighborhood, the past of what people have done for investment. 
And you have taken it to a new level, and encouraged everyone. 
I appreciate what you're doing. And Mr. Chairman, I want to 
thank you also, for giving us the opportunity to highlight what 
these individuals are doing.
    I told you when we were on our way to this spot for this 
hearing, that a lot of blood, sweat, and tears of these people 
have changed these neighbors. And I appreciate you giving us 
this opportunity to highlight what they're doing, which I do 
think those have a significance, too. Thank you.
    Mr. Clay. I certainly do. I want to thank Congressman 
Turner for being a host to the subcommittee, and for showing us 
around today. Let me thank all of the witnesses on this panel, 
for your expertise in this area. And say that I am--I am truly 
impressed about what I have seen today, the efforts of the 
people in the Dayton community to actually make a difference, 
and to attract people back into the inner core of the city, and 
as Ms. Gasper said, in creative ways. And I thank you for that. 
And this is of national significance, because this story needs 
to be told around the country, of how we get people back into 
the inner core. Let me thank you all for today, for 
participating in today's hearing, and that concludes this 
hearing. Hearing is adjourned. Thank you.
    Mr. Turner. Thank you.
    [Whereupon, at 12:56 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
